<html>
<title> - THE POTENTIAL IMPACTS OF LARGE-SCALE MONUMENT DESIGNATIONS</title>
<body><pre>[Senate Hearing 114-472]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-472

       THE POTENTIAL IMPACTS OF LARGE-SCALE MONUMENT DESIGNATIONS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2016

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources




           Available via the World Wide Web: http://fdsys.gov
           
           
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-996                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001           
           
           
           
           
           
           
           
           
           
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Lee, Hon. Mike, a U.S. Senator from Utah.........................     1

                               WITNESSES

Herbert, Hon. Gary, Governor, State of Utah......................     4
Bishop, Hon. Rob, Representative for the State of Utah, U.S. 
  House of Representatives.......................................    15
Adams, Hon. Bruce, Commissioner, San Juan County (Utah)..........    17
Johnson, Chester, Aneth Chapter, Navajo Nation...................    22
Singer, Lewis, Blue Mountain Dine, Navajo Nation.................    30

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Adams, Hon. Bruce:
    Statement for the Record.....................................    17
    Written Statement............................................    20
Bears Ears Inter-Tribal Coalition:
    Letter responding to invitation to participate in the 7/27/16 
      Field Hearing..............................................    41
    Proposal to President Barack Obama for the Creation of Bears 
      Ears National Monument dated 10/15/2015....................    42
Bishop, Hon. Rob:
    Statement for the Record.....................................    15
Herbert, Hon. Gary:
    Statement for the Record.....................................     4
    Written Statement............................................     9
Johnson, Chester:
    Statement for the Record.....................................    22
    Written Statement............................................    26
Lee, Hon. Mike:
    Opening Statement............................................     1
National Trust for Historic Preservation:
    Statement for the Record.....................................   108
Singer, Lewis:
    Statement for the Record.....................................    30
    Written Statement............................................    32
United States Department of Agriculture:
    Statement for the Record.....................................   112
United States Department of the Interior:
    Statement for the Record.....................................   114
Utah Dine Bikeyah:
    Letter dated 7/23/16 responding to invitation to participate 
      in the         7/27/16 Field Hearing.......................   116
Utah Farm Bureau Federation:
    Letter to Secretary Jewell dated 7/16/16.....................   118

 Additional statements for this hearing were submitted and are on file 
 with the Chief Clerk of the Committee on Energy and Natural Resources.

 
       THE POTENTIAL IMPACTS OF LARGE-SCALE MONUMENT DESIGNATIONS

                              ----------                              


                        Wednesday, July 27, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:00 p.m. MDT at 
the San Juan County High School, 311 North 100 East, Blanding, 
Utah, Hon. Mike Lee, presiding.

  OPENING STATEMENT OF HON. MIKE LEE, A U.S. SENATOR FROM UTAH

    Senator Lee. This is truly one of the most spectacular 
places on earth.
    I have commented to my staff and to some of your local 
elected officials here today that it is amazing that anyone who 
ever lived here would ever want to leave because it is so 
beautiful. And the physical beauty of the surroundings here is 
matched only by the quality of the people who live here and 
love their community, people who want to make sure that their 
community is strong and vibrant and remains a great place for 
their children and for their grandchildren.
    It is no coincidence that every year people travel a great 
distance, from all over the United States, all over the State 
of Utah, and indeed, all over the world just to have their 
breath taken away by the sights of the canyons, of the natural 
bridges, the rivers and lakes, the valleys and the cliffs and, 
of course, the Bears Ears Buttes, which incidentally, I visited 
this morning. We climbed to the top of the east Bears Ears. All 
these thing are just sitting right in your backyard. But as 
everyone here knows there is much more to this part of our 
state than just this natural beauty.
    For the people of the Navajo Nation who live here in San 
Juan County and whose forefathers first settled these canyons 
many hundreds of years ago, this corner of the world, known as 
Bears Ears, is not just a place you call home. It is sacred 
ground. It is a source of meaning, a source of sustenance, a 
place where you meditate, where you gather and pray and hold 
ceremonies.
    It is what unites the generations of families and tribes 
forming an organic and permanent bond that connects past, 
present and future, all in one place and all at one time. 
Taking care of ancestral land, protecting and preserving it for 
the next generation, is not optional for many Native Americans. 
It is a sacred duty, it is part of life, and it is part of 
their tradition and their deeply rooted religious belief.
    Now the same is true in my own faith, as a lifelong member 
of the Church of Jesus Christ of Latter Day Saints. I believe 
that pursuant to church teachings that God has created this 
earth for the benefit of man and that man has a sacred duty to 
use this earth wisely and prudently with thanksgiving and with 
concern for those who will live in future generations.
    The people of the Navajo Nation, living in San Juan County, 
have always faithfully fulfilled this responsibility in the 
Bears Ears region caring for their homelands and respecting for 
as long as anyone can remember, just as their forefathers did, 
the cultural lifeblood of the Navajo people of Southeastern 
Utah.
    Take away their access to the land, restrict their 
stewardship over the bounty, and it may not be long before 
their culture begins to suffer as a result. You can't take that 
away, not without doing serious damage. Yet, that is exactly 
what the Obama Administration is contemplating with the 
potential national monument designation in the Bears Ears 
region.
    I would like to put forth four goals, four simple goals, 
that, I believe, are most likely shared by everyone in this 
room, by the people of San Juan County and, I believe, even by 
the White House. First, we need to protect Bears Ears for 
future generations to enjoy just as we today enjoy it and just 
as our forefathers going back centuries have enjoyed it. 
Second, to continue in perpetuity, Native American use of the 
land that has spiritually and physically sustained them for 
many hundreds of years. Third, establish Native American co-
management of the Bears Ears region. And fourth, preserve 
multiple use of lands where doing so does not conflict with 
conservation goals.
    Now if these are our shared goals, history proves that they 
cannot be achieved if we try to pursue them by simply having 
the President of the United States, from a distant perch in 
Washington, DC, designating Bears Ears as a national monument. 
The Antiquities Act, which the President would use to make a 
national monument designation, simply does not allow for the 
inclusive, grassroots-based, land management required by these 
shared goals that I have outlined. That is the bad news.
    But the good news is that there is a better way, and it is 
called the Public Lands Initiative (PLI) which is a piece of 
legislation that has been written to achieve what a monument 
designation cannot. Instead of simply hoping that current and 
future land managers will cooperate and work equitably with the 
people of San Juan County, the PLI would codify into law clear 
and fair land management guidelines that ensure that Native 
Americans and other residents of San Juan County will be 
actively involved in the preservation of Bears Ears.
    The PLI is different than the proposed national monument in 
this respect because unlike the proposed national monument, the 
PLI requires no leap of faith, no leap of faith that suddenly 
without any standards agreed upon in advance, Federal land 
managers are just going to work cooperatively with local 
residents.
    Before we introduce today's witnesses, it is worth 
acknowledging who is not here, who is not in the room with us, 
who is not present for this field hearing today.
    Among those people who are not with us today are officials 
from the United States Department of the Interior and officials 
from the United States Forest Service as well as members of the 
group that calls itself the Bears Ears Coalition. Now just to 
be clear, they were all invited, Representatives from each of 
those entities were invited but they declined to participate in 
today's hearing. This, I believe, is proof that we did not try, 
as some may suggest, to ``stack the deck'' with our panel of 
witnesses today.
    We would have preferred, of course, to have had witnesses 
from opposing viewpoints so as to clarify the debate. That is 
exactly why we began scheduling this hearing well over a month 
ago, to give everyone from all sides of this issue enough time 
to plan to be here as we try to find consensus on this 
important issue.
    But I cannot force the Obama Administration, I cannot force 
representatives of the U.S. Department of the Interior or the 
U.S. Forest Service, and I cannot force members of the Bears 
Ears Coalition to sit down and speak to you today. They would 
have to do so voluntarily and they have chosen to decline our 
invitation to do that.
    While I was pleased that Secretary Jewell and other Federal 
officials visited Utah a couple of weeks ago, Governor Herbert 
and the Federal delegation were unable to join because of the 
voting schedule of the U.S. House of Representatives, the U.S. 
Senate and the official business of the National Governor's 
Association. I had hoped that today's hearing, which Secretary 
Jewell has known about for over a month, could have served as 
an opportunity for at least someone in the Administration, if 
not Secretary Jewell herself perhaps a representative, to 
engage with those of us unable to make the trip last week and 
to those of you who tried to attend but were unable to do so 
because of the significant space constraints that kept many 
people from attending that meeting.
    Sadly, their absence here today seems to fit within the 
long standing pattern. After members of the PLI requested a 
meeting with the Bears Ears Coalition to discuss updates to the 
initiative, leadership of the Bears Ears Coalition responded. 
They responded and said, ``We respectfully decline your 
invitation. We are satisfied that a Bears Ears National 
Monument, proclaimed by President Obama under his authority 
granted by the Antiquities Act, presents the best opportunity 
to protect the Bears Ears landscape and to assure a strong, 
Native American voice in monument management.''
    But the debate over the future of Bears Ears is far from 
finished much as some would like to pretend otherwise. Everyone 
here, the fact that you are here, the fact that you have given 
up a perfectly good block of time in the middle of perfectly 
good week to be here, demonstrates this debate is not over, 
that it should not be over.
    We hope that the Bears Ears Coalition will reconsider and 
will meet with us to discuss how best to preserve Bears Ears 
and how best to preserve Bears Ears in a way that is consistent 
with the will and the wishes of the people most directly 
affected by any action taken in this area. My door is always 
open.
    As a matter of housekeeping, I would like to remind 
everyone that this field hearing today is the same as a hearing 
in the United States Senate. Even though we are not in 
Washington, DC, this is a hearing of the U.S. Senate Energy and 
Natural Resources Committee. We are here to gather information 
from witnesses and examine a very important issue near and dear 
to our hearts, the impact of large scale monument designations. 
The regular rules that would apply to a Senate hearing will 
also apply here.
    In order to allow for time to answer questions and have a 
bit more dialog with everyone who took the time to travel 
today, we will transition to a town hall format immediately 
following the conclusion of this formal hearing. Governor 
Herbert, Chairman Bishop and I will answer questions about PLI 
or a national monument, and I will invite audience members 
advocating for a national monument to join us in that 
conversation which, again, will occur immediately following the 
formal portion of this Committee hearing. To ensure that all 
perspectives are heard, time will be evenly divided between 
opponents and proponents of the national monument during the 
town hall section of this meeting.
    Before introducing our esteemed witnesses who have 
generously joined us today, I would like to take a moment to 
thank Principal Bob Peterson and the entire staff of the San 
Juan High School for graciously allowing us to use this 
facility today. Let's give them a round of applause. 
[Applause.]
    Senator Lee. Principal Peterson, where are you? There he 
is. Give him another round of applause. There he is right 
there. [Applause.]
    Senator Lee. Okay. It is now time for us to hear from our 
great panel of witnesses.
    As a reminder to each of these witnesses, you will each 
have a few minutes to present your oral testimony that you 
prepared in advance. Any additional written testimony will be 
accepted for the record for two weeks following today's 
hearing. So feel free to supplement the record with any 
additional material, if you would like to do so, but do it 
within 14 days.
    After all witnesses complete their opening statements, we 
will follow with a round of questions before finishing the 
hearing and moving on to the town hall meeting.
    Our first witness, who I am now pleased to announce, is the 
Honorable Gary Herbert, the current Governor of the State of 
Utah.
    I would like to thank you, Governor Herbert, for taking the 
time to be here today and for taking time out of your busy 
schedule to be here with us in Blanding to share your thoughts.
    Governor Herbert? [Applause.]

    STATEMENT OF HON. GARY HERBERT, GOVERNOR, STATE OF UTAH

    Governor Herbert. Well thank you, Senator Lee, and I'm 
honored to be here with you.
    For the record, I am Gary Herbert, Governor of the great 
State of Utah, and honored to be here to talk about what I 
think is a very important subject for the entire State of Utah, 
not just for San Juan County, but for the entire State of Utah 
and beyond our borders. I know this is an important discussion 
and thank you, Senator Lee, for holding this important hearing.
    I appreciate the invitation to come here and speak on 
behalf of the people of Utah. We have differences of opinion on 
this issue. I understand politics, you know, and sometimes the 
media seems to emphasize the differences we have on different 
issues.
    I'd like to just remind everybody that I think this is an 
issue that most of us have some consensus on. You've, kind of, 
already highlighted that, Senator Lee, by talking about the 
desire that most everyone has to have some kind of preservation 
of the Bears Ears area, to preserve and protect those 
uniquenesses that we find in that beautiful part of our state 
here in San Juan County.
    And so, as we talk about this, the discussion really is we 
don't have opposition to the protection. But really the 
discussion seems to be revolving around how we, in fact, 
implement protection of the Bears Ears area. And how should we, 
in fact, go about that? Process does count, and I think that's 
important for us to all to remember of the process that we're 
involved with here on either side of this issue.
    As we talk about this today, I hope we don't lose sight of 
the fact we have consensus on preservation and protection. We 
have a common goal, so the discussion really should focus 
around how best to achieve this shared goal.
    And I hope that tomorrow's media headline, rather than 
emphasizing the differences and the divisiveness, emphasizes 
the consensus and the common goal that most everybody has about 
the preservation and protection of the Bears Ears.
    Now as I get into my view of this thing, let me just 
mention a key principle that I think pertains to most all of us 
as we see the effective use of government power. We've heard 
the phrase many times that government closest to the people 
governs best. That's because it's reflective of those who 
they're nearest to.
    I believe that states have a significant role to solve 
problems of most of the issues that we talk about today. And 
with all due respect to those in Washington, DC, I think that 
the fact solutions come better from the states and the local 
governments on most issues whether it be health care, human 
services, education, for example, public safety and yes, even 
the public lands.
    Certainly those who have it in their backyard, that bear 
the brunt of what other decisions are made regarding the public 
lands ought to have their voices heard, considered and 
respected as part of the ability to come up with the 
appropriate and final solution. I would say that no one, I do 
mean no one, understands the challenges that are uniquely 
local, for public lands from those who live next door and 
amongst the public lands and so our citizens here should be 
heard.
    This principle we call federalism, and I know Congressman 
Bishop has been a big champion for the idea of shared 
responsibilities, is something that I've championed as the 
Chairman, as you know, Senator Lee, for the National Governors 
Association. States finding solutions and solving people's 
problems at that level seem to be much more effective in 
getting things done as we look around this great country. That 
follows with, kind of, the principle I see here in solving this 
particular challenge and unique problem that we face here.
    I also believe in accountability. Those who are elected by 
the people bear the burden of accountability of those who have 
put them into office. I think that is much more germane to the 
issue than some unelected bureaucrat in Washington, DC that 
really has not seen, been here or very seldom understands the 
backyard of the people here each and every day. So that 
accountability that we have and owe to our citizens of this 
state is best borne by those who are elected to the office.
    One of the biggest lessons, I think, we've learned over 
time is that local input is critical to getting success and to 
get buy in to whatever the solution is to the problem at hand. 
And I think there's a significant difference to we, the people 
of Utah, who have something done to us as opposed to something 
that's done with us. And we've seen that, significantly, 20 
years ago when we had the Grand Staircase Escalante Monument in 
1996 when we feel as a state that something was done to us and 
not with us.
    The process was, in fact, closed. There was not openness. 
There was not transparency. In fact, that from the highest 
office in the land, we were in fact lied to, Senator, about 
what was going to happen on that designation. And consequently, 
the results are 20 years later, we still have animus anger and 
distrust for the Federal Government because of that lack of 
process and having something done to us that we have evidence 
of visceral anger still today because of that process.
    That being said, process matters. Again, I think people can 
get together around the table and talk about their differences 
and deal in good faith. And I think that's what the intent has 
been here to deal in good faith.
    So, we have two different competing arguments here. A 
national monument designation by one person who says with the 
wave of a hand this is what's going to be, or we have a process 
that would be done legislatively that's taken many years in the 
process of bringing people to the table, led by Congress and 
Rep. Bishop and others of our congressional delegation and 
saying let's see if we can't build a consensus and pass 
something legislatively that, in fact, will give us something 
that we feel like we've been participant in as co-partners in 
this as opposed to done to.
    And so, again, I know that sometimes that's hard. It's not 
easy. It's much easier to be a monarchy. It's much easier to be 
a dictator and say this is how I decree it.
    It's much more difficult, in fact, to bring people together 
and discuss the issues, the pros and the cons and reason 
together and find compromise. And some people don't like 
compromise. It's my way or the highway.
    But again, I think, for us in Utah, we understand that 
compromise is not a dirty word and something that is necessary 
to find the good for the whole.
    Again, I appreciate that aspect of what's being done here 
and I appreciate Congressman Bishop having over a thousand 
different public meetings in trying to bring consensus and 
bring people together.
    Not doing this has a host of negative consequences that 
we'll have, that can take place. And again, we know people have 
different points of view but I think what we have with the PLI 
now, the Public Land Initiative, is, in fact, somewhat of a 
culmination of much work and effort by many people and not just 
the result of some kind of media hype or out of state or out of 
area lobbying campaign or editorial campaign as opposed to 
really hearing the voice of the people.
    I think, as you can tell, I'm in the camp of doing this 
legislatively as opposed to a national monument. I think it's 
the best way to bring consensus and bring good will out of the 
end product. There's probably a lot of reasons that we'll talk 
about here this afternoon about why this is a better way, but 
it's the only way we can truly guarantee the outcome is through 
legislative action. You've already touched on that, Senator 
Lee, that the only way we can have a guarantee of the outcome 
and the process of management going forward is through 
legislative action.
    I expect, and Congressman Bishop can talk to this, that the 
current version of the PLI is not the final edition. I expect 
there's opportunities to modify in some way and fine tune it to 
address some of the issues that, maybe, have been raised since 
it's been released.
    But I believe that the PLI represents our best chance to 
find a way to find, kind of what I call, the messy middle. Not 
everybody is always happy about the middle, but compromise is 
what we need to look for here in this process and I think the 
PLI gives us a chance to do that.
    Let me say a couple more things, if I could, before I sign 
off, and I have extended my remarks which will be on file for 
you to look at.
    But again, I mention the fact that, you know, the 
challenges that we uniquely saw with the national monument 
enforcement, again, this Grand Staircase Escalante monument, 
1.9 million acres. They have one forest ranger to enforce, law 
enforcement, to take care of the management responsibilities on 
that area, and that's way too few when it comes down to it. If 
you don't have local buy in it makes it very difficult, in 
fact, to manage the properties.
    The Grand Staircase Escalante National Monument Management 
Report for 2014 read this way, ``Grand Staircase Escalante 
National Monument is experiencing constantly increasing 
recreational use as a result of national and international 
advertising, promoting as an iconic canyon country destination. 
This presents management challenges balancing use with adequate 
protections of the monument's objective and values. Increased 
backcountry visitor impacts include increased graffiti, human 
waste issues, water quality concerns and parking congestions. 
Dispersed campsites are proliferating. Plain efforts are needed 
to ensure adequate use of management and resource protection.''
    Now that costs money and resources. I don't think that 
those who've been arguing for protection of Bears Ears want to 
see that kind of end result. And so, just doing it as a 
national monument, I think, has unintended consequences which I 
think, in fact, our Native American brothers and sisters would 
not like to see happen.
    This last year the Grand Staircase Escalante had 1,400 
reported cases of vandalism. According to the BLM there have 
been only 25 cases of vandalism reported in the Bears Ears 
region since 2011. I'll say it again, 1,400 cases of vandalism 
on the Grand Staircase Escalante last year alone and only 25 
cases since 2011 in the Bears Ears area. That's 1,400 times 
more common vandalism in an area that we want to respect and 
treat as sacred lands.
    Let me just give you some comparison numbers too, Senator. 
As we look at the size and magnitude of this monument, 1.9 
million acres being proposed, it's by comparison larger than 
the entire State of Rhode Island, just over, we have about 
3,000 square miles in the monument. Rhode Island is 1,200 
square miles.
    Rhode Island currently has 93 state troopers to patrol an 
area that is, again, about 40 percent larger or smaller than 
the Bears Ears region. They have, BLM has two full time 
officers assigned on patrol to protect the entire Bears Ears 
region.
    And Rhode Island, Providence, the responsibility for that 
area is comprised of 20.5 square miles that the Providence 
Police Department has a budget of $69 million last year, $69 
million.
    Just so, again, for comparison the entire budget of the BLM 
National Conservation Lands System nationwide, Senator, you 
know this probably as well as anybody, responsible for over 
50,000 square miles of protected lands, is only $64 million.
    So the resources to be committed to this thing are going to 
be sparse, indeed, if we look at the reality.
    So proper protection, I think, is important. But 
cooperation of the local community is to have buy in is why I 
think the PLI presents us with the best option.
    A unilateral monument designation will divide the people, 
not only here in Utah, but elsewhere. I think division is not 
healthy for what we're trying to accomplish with the Bears Ears 
region.
    On the other hand, a legislative consensus solution like 
the PLI as proposed by Congressman Bishop has the potential to 
bring people together to ensure local cooperation and put in 
place a durable solution not only for the short-term, but for 
the long-term benefits of the people of Utah, the people of San 
Juan County, our Native American friends and for the people of 
America. It will give us the best long-term benefit in 
protecting and conserving public lands on nearly 18 million 
acres outside of just the Bears Ears region.
    So the intended consequences of the PLI must go beyond just 
the Bears Ears area and a national monument creation would 
knock that all out the window and eliminate all the potential 
we have with the PLI that goes above and beyond the Bears Ears.
    So there is a right way to do this, I believe, and a wrong 
way to do it. The process involved with the PLI is, in fact, 
the right way. And my sincere hope is that with your help and 
the congressional work of the House and the Senate, that we can 
show that the current Administration of President Obama and his 
folks that this is a better way.
    If you really care about the land this is not some kind of 
a political tomahawk to be used, no pun intended. If this 
really is about, in fact, the Bears Ears region, protecting, 
conserving the land, the PLI is by far, the superior way to go 
about doing it.
    So thank you for giving me the time. [Applause.]
    [The prepared statement of Governor Herbert follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Lee. Thank you very much, Governor Herbert, for 
your testimony.
    We are now going to be privileged to hear from our next 
witness, who is Congressman Rob Bishop. Congressman Bishop 
represents Utah's first congressional District. He is also 
currently serving as the Chairman of the House Natural 
Resources Committee, and as Governor Herbert just mentioned a 
moment ago, he has held more than a thousand meetings around 
the state as he has worked relentlessly to put together his 
Public Lands Initiative.
    Congressman Bishop?

 STATEMENT OF HON. ROB BISHOP, REPRESENTATIVE FOR THE STATE OF 
          UTAH, UNITED STATES HOUSE OF REPRESENTATIVES

    Mr. Bishop. Well, thank you. And I appreciate---- 
[Applause.]
    That was nice. If you do it when I finish, then I'll be 
impressed, but---- [Laughter.]
    I'm not finished yet. [Laughter.]
    Anyway, thank you.
    I'm happy to be back here with you, and I appreciate the 
invitation. I feel saddened that many in the Administration 
have not taken the opportunity of joining us here in an 
official Senate hearing which would have been extremely 
healthy.
    I also realize that there are some people that have said 
this hearing is biased. There is one thing I want to say about 
that. Of course it's biased, this is a Senate hearing. 
Everything the Senate does is biased. If it was on the House 
side, everything would be cool. We'd be great. [Laughter.]
    Nothing personal, but that's right.
    I do want to spend a second talking about the history of 
the Antiquities Act and then something also about PLI, 
especially as it relates to Bears Ears.
    The Antiquities Act was passed in 1906. I hope people 
realize there were only 46 states in the nation then. There was 
no Park Service, there was no BLM and there were very few 
environmental laws, in fact, none at all.
    In the debate on the floor of the House for that 
Antiquities Act Congressman Lacey turned to a Western 
Congressman by the name of Stevens and said what we're trying 
to do is preserve old objects of special interest which simply 
meant that the purpose of Antiquities was to find a specific 
archeological, scientific or historical thing and preserve it.
    Unfortunately, some Presidents have made like a Marine 
National Monument and the antiquities was a whole bunch of 
fish. Grand Staircase Escalante I asked Katie McGinty was the 
specific entity was and she said well, there's a lot of 
interesting plants. Plants and fish are not antiquities.
    The second element was it had to be in immediate danger. 
So, for example, President Obama did Cesar Chavez's home. Now 
that's an antiquity, a thing, but it was not in any danger of 
immediate harm.
    The third element was it was always supposed to be in the 
smallest area possible. So on the debate they actually thought 
of amending the bill and they debated it on the House floor and 
the discussion was whether they should put a limit on how big 
these monuments would/should be and the discussion was whether 
they should be 320 acres or 640 acres, not 1.9 million acres. 
[Applause.]
    Unfortunately, when they wrote it they didn't put a 
specific number in there. They just said the smallest footprint 
possible. But you realize what the three things that we're 
talking about concluded.
    Now if this is all about management by the Administration, 
it's already Federal land. The Administration has all sorts of 
tools from NEPA and FLPMA and everything else. This has got to 
be something more than simply about management. I think there's 
a political aspect to this which is sad.
    It is also going to be sad that lots of presidents have 
used the Antiquities Act, both Republican and Democrat. Well, 
big deal. The ones who have used it have used it sparingly. FDR 
was elected four times, four terms. He only did use the 
Antiquities Act four times and one of those was overturned.
    If you go from like the mid-1960's to the mid-1990's, that 
30-year period, they had seven presidents. Only one of those 
seven presidents used the Antiquities Act, of course, he used 
it 15 times. But there was only one who used it in that time 
period.
    So, to me, there are three presidents, who in my 
estimation, have not used it but have abused it. Most 
presidents do one, two, maybe three monument designations. 
Jimmy Carter did 15. Bill Clinton did his first one in his re-
elect which was Grand Staircase Escalante and then 21 more as 
he left the door. And Barack Obama is trying to break that 
record now. It's seven in his first term and now he says he 
wants to have a legacy. To me, that's an abuse of it.
    Now, as much as I think the Antiquities Act is a 
legislative function mistakenly given to the Executive branch 
and the criteria is ignored today and the practice is abused 
today, there is still a better way of doing conservation 
efforts. And I think the PLI initiative is what we're trying to 
do.
    It's been frustrating because we're trying to bring people 
who have never really compromised together before to actually 
compromise. That's frustrating, and it's taking a long time.
    But I think we do have a good bill. And specifically for 
this area for Bears Ears, we have a better way of preserving 
the area by having two conservation areas plus some wilderness 
gives flexibility for those who want to use it for the 
traditional activities as well as those who want to conserve 
it.
    But the important part to remember here is that it can only 
be done if you actually write it in statute. For Grand 
Staircase Escalante, the proclamation said grazing rights would 
be preserved. They haven't been. They eventually change as time 
goes on which is one of the reasons why we should do this 
statutorily not in some proclamation that has not guaranteed 
what the future will be.
    That means that when we talk about management of this area, 
the management practice that is currently in this bill is the 
management that is legal now without changing any legislation.
    What the Administration has promised that they would like 
to, as a co-management, cannot legally be accomplished by the 
Administration.
    But Senator, the Senate and the House can. If we were to 
put that statutorily into practice, then it could be done. And 
I think, to me, that's the key element that you have to realize 
what the Administration has promised us as far as management of 
this land cannot be done. They cannot deliver.
    But congressionally, in statute, they can, we can deliver 
it and we could make sure that it is guaranteed and stayed 
there permanently.
    So, they may talk about executive orders of the past, even 
Freedom of Religion Act. In all of those they are still 
dominated by the underlying legislation saying the Secretary of 
Interior shall do everything they talked about to the extent 
practical. That's the phrase I'm trying to get out of every 
piece of legislation coming through my committee, because it is 
too nebulous and it never guarantees what will or will not be 
the practices.
    It also has no cause of action. If you think the 
Administration is doing something they weren't supposed to do 
than what they promised, there is no legal recourse about it. 
You're stuck. That is something that can be changed.
    And I'm going to tell you right now, unfortunately, I think 
the bill is done. I don't want to change it a whole lot but 
there is one thing I'm willing to fine tune and fine tune the 
management concept so that we can put into statute what will 
and will not be accomplished in there. We can actually have 
some kind of cooperative co-management practice but doing it 
the right way. A Presidential Proclamation cannot guarantee 
squat.
    Thank you. [Applause.]
    Senator Lee. Thank you very much, Congressman Bishop.
    We are going to be privileged next to hear from Bruce 
Adams. In addition to being a San Juan County Commissioner, 
Bruce Adams is additionally qualified to testify before us 
because he is a fourth generation rancher and knows this land 
as well as anyone.
    Commissioner Adams?

 STATEMENT OF HON. BRUCE ADAMS, COMMISSIONER, SAN JUAN COUNTY 
                             (UTAH)

    Mr. Adams. Thank you, Senator Lee. [Applause.]
    I want to thank you on behalf of the San Juan County 
Commission for holding this hearing. In my lifetime I'm not 
aware of any hearing by the Senate ever in our county. There 
may have been. I'm only 67, so. [Laughter.]
    But thank you so much for doing this for not only us, as 
commissioners, but for this constituency that is here today. 
They appreciate it very much I know.
    Senator Lee. Thank you. [Applause.]
    Mr. Adams. As you stated I am a public land grazer. I'm in 
the cattle business so I'm here to represent the grazing 
community, to represent farmers and ranchers in San Juan 
County.
    I also want to make some comments about the city's 
watershed, both in Monticello and Blanding, if you'll allow me 
to do that.
    First of all, a historical perspective might help you to 
understand the history, the grazing history in San Juan County.
    In 1879 families loaded into 80 wagons in Parowan, Utah and 
began a journey to San Juan County. They brought with them 
1,000 head of horses and cows. The purpose of this expedition 
was to establish a settlement among the Native American people 
and help them with their domestic needs. Even though the 
settlers encountered some hostility at first, they soon became 
great friends.
    After these families settled in what would be known as 
Bluff, Utah, four families moved to the base of the Blue 
Mountains and established the beginnings of the present day 
community of Monticello. When these early settlers arrived at 
the base of the Blue Mountains, they were met by the LC and 
Carlisle cattle companies. These two cattle outfits were 
composed largely of Texas cowboys and outlaws hiding from their 
misdeeds.
    The grass was so plentiful in the area it is a matter of 
historical record that each cattle company was running nearly 
10,000 head of cattle, 10,000 yearlings, east of Monticello and 
down in the Verdure Creek drainage. At this time grazing was 
free and unregulated.
    As a result, these grazing companies, along with others, 
overgrazed the land in the name of quick profitability for 
their investors and with little regard for the land which they 
were grazing. The early settlers were anxious to find a place 
not being grazed by the large companies, to graze their cattle 
that they had brought with them from Parowan.
    In the meantime, the Federal Government was developing 
policies for grazing public land and in 1934 passed the Taylor 
Grazing Act. It was signed by President Roosevelt and was 
intended to, and I quote from the record, ``stop injury to the 
public grazing lands by preventing overgrazing and soil 
deterioration, to provide for the orderly use, improvement, and 
development, to stabilize the grazing of the livestock industry 
dependent upon the public range.'' This Act was welcomed by the 
livestock men here in San Juan County, and it brought stability 
to the settlers who depended on grazing the public land for 
their livelihood.
    On July 16, 1946, the Grazing Service and the General Land 
Office merged to form the Bureau of Land Management, or BLM. 
The BLM was in charge of the grazing permits that exist even 
today. These grazing permits have great value to the decedents 
of their ancestral families who obtained the rights to graze 
over 150 years ago. Many of the original grazing permits are 
still part of the family heritage that exists today.
    I would like to tell you the history of the BLM grazing 
permit I graze my cattle on. The first holder of the grazing 
permit was a man named Darryl Redd. He passed that permit on to 
his son, Lemuel Hardison Redd, and then through the guidelines 
of the BLM I obtained the permit from him. Only three 
individuals have ever held the rights to graze that permit.
    I could give you many examples of families who have 
obtained grazing permits from their settler ancestors. I just 
want to point out that these grazing permits are part of our 
heritage and obviously have great value to San Juan County with 
the families continually participating in grazing throughout 
each generation.
    Agriculture is one of the most important industries in this 
county. In fact, it ranks in the top two for economic 
importance in the county. When you are raised in a family that 
depends on cattle grazing, it becomes part of your soul and 
fiber. You live and breathe the cattle business. You raise you 
children to love the land and take care of it so that it will 
take care of you.
    Cattlemen are the original environmentalists, because they 
could see the value of good land management. We welcome new 
ideas and improved management practices, but with only eight 
percent private property in this county we must be able to 
graze public land.
    Congressional Code Title 43, Chapter 8A, Subchapter 1-51b 
states, ``Preference shall be given to issuance of grazing 
permits to those within or near a district who are landowners 
engaged in the livestock business.''
    State Code 63-38d-401(6)(m) includes state policy for 
public land grazing and supports grazing of domestic livestock.
    I am not sure what a new monument in San Juan County would 
do to livestock grazers, but I can tell you what has happened 
in Garfield County, Utah after the designation of the Grand 
Staircase Escalante monument.
    One hundred six thousand AUMs were permitted at the time of 
the Grand Staircase Escalante National Monument creation. 
Approximately 40,000 were actually used in 2015, a 60 percent 
cut. Seedlings and vegetation treatment have not been 
maintained due to restrictive regulations. Prohibition against 
the non-native seeds have reduced range land health. 
Maintenance and improvement of water development has largely 
been eliminated. Monument designation has attracted visitors 
creating conflicts with pre-existing livestock operations. 
Monument designations have closed roads and reduced access to 
range improvements and allotments. Land use restrictions and 
zoning regulations have complicated feeding, watering, herding, 
and managing livestock operations. Monuments always reduce 
AUMs. [Applause.]
    Watersheds of both Blanding and Monticello are included in 
the proposed Bears Ears National Monument. That would devastate 
the communities of Monticello and Blanding.
    I urge you to do everything you can to stop this monument 
from happening in San Juan County.
    Thank you. [Applause.]
    [The prepared statement of Mr. Adams follows:]
   
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
   
    
    Senator Lee. Thank you very much, Commissioner. It is great 
to hear from you, and I appreciate your insights.
    Our next witness is Mr. Chester Johnson. We owe Mr. Johnson 
a great debt of gratitude for driving up from Aneth today. I 
know he is busy caring for his 92-year-old mother, so he has a 
lot on his hands.
    Chester was born in this county, and he has lived almost 
his entire life here in San Juan County. He retired just a few 
years ago in 2010, although he doesn't look old enough to be 
retired, after a long career as a social worker. A career in 
which he was able to use his Bachelor's Degree and his Master's 
Degree that he earned from the University of New Mexico and 
from New Mexico Highland University, respectively, to help the 
Navajo people in his career in social work.
    Mr. Johnson? [Applause.]

   STATEMENT OF CHESTER JOHNSON, ANETH CHAPTER, NAVAJO NATION

    Mr. Johnson. Thank you. Thank you, Senator.
    Good afternoon, everybody. Thank you for coming out.
    My name is Chester Johnson. I am a direct descendent from 
Kayellii, who was a Navajo warrior that had traveled in the 
Bears Ears region for many years. He believes in freedom and 
protection of land and independence. These are some things we 
carry on within our family, and many are living in the Aneth 
area are descended from this Kayellii warrior.
    Today I am here to give testimony on the sacredness of the 
Bears Ears region, also I'm supporting the PLI proposal. And I 
will elaborate on opposing the Bears Ears coalition proposal.
    Bears Ears is always sacred land to the Navajo. It's an 
inspiration to us, it gives us strength as well as a healthy 
life. It provides good food and good hunting meat for us Native 
people. Annually we come out and hunt and picked pinons for 
food.
    Bears Ears is also homeland for our ancestors. We go in 
good mind and good way to walk the land Bears Ears and give us 
a peaceful and renew our physical being as well as spiritual. 
This is the way we look at Bears Ears and this is the way our 
warrior, Kayellii, has courageously fought for his freedom and 
fought to maintain our land.
    When you walk on the land on Bears Ears, it's a beautiful 
area. It's an inspiration to us and this is where we go for 
medicine and for prayer.
    This is why we want protection for Bears Ears and we--the 
medicine person that goes out and gets medicine, that's where 
they go for fresh medicine as well as conducting their 
ceremony, and we'd like to maintain this openness to our Native 
people as well as for other people using the land at the 
current stage.
    If President Obama succeeds in making Bears Ears land a 
national monument, the Utah Navajos will be shut off from 
traditional practices as well as harvesting medicine and 
conducting healing ceremonies.
    Now I will go on to the supporting PLI proposal. To me, 
this proposal expresses the needs, crucial needs, of the Navajo 
people in relation to culture, spiritual belief and economic 
development that could bring prosperity to Utah Navajo.
    Some of the things I will point out in my speech here is 
number one, the PLI proposal advocates a national monument area 
designation of Bears Ears and establishes certain region of 
wilderness area. That proposal is the majority supported by 
Utah, San Juan County citizens.
    This is a comprehensive land proposal put together by the 
citizens of San Juan County. No one is excluded, and we all 
encourage people to participate in making this proposal by 
public meetings throughout the counties. I was part of the 
group discussion for this proposal from the beginning to the 
end when it was sent to our commission last year.
    Because the Utah Navajo were encouraged and they advocate 
for this proposal because it respects and values the tie they 
have with the Bears Ears. It also leaves access to the things 
that they would need at the Bears Ears region. Also again, it 
will bring prospect in the economic development through this 
proposal to reservation.
    There is heart and soul that this proposal is co-management 
which has been some lengthy discussion among the panel up here. 
And we believe in it, that it can be done. We get most of the 
county and Navajo included in this believe this is greater 
protection for our public land in San Juan County.
    Another thing that we, many people, in the Aneth region, 
things that we favor with this proposal because there is a 
possibility of transferring Federal mineral rights on the 
McCracken extension of the Navajo reservation to the Utah 
Navajo Trust Fund.
    These are the outstanding reasons why I support the PLI 
proposal. Also I think I have the right to express my opinions 
and support for public land, how it should be controlled and 
managed. Through the PLI proposal, we have the opportunity to 
establish or to create land management policy as well as 
decisions that will assure greater protection for public land.
    And I mentioned that I oppose the Bears Ears Coalition 
proposal.
    Here are some things that I feel that needs to be shared 
with the public, the way we see from the Aneth area, Aneth 
Chapter.
    The proposal was written only for a few people. Most of 
these were people that are from outside San Juan County. We 
feel that it was written by environmentalists, archeologists, 
and rock climbers and Indian tribes from New Mexico and 
Arizona. They lack the knowledge of the Bears Ears. That's how 
we feel. And here they're put in some position where they can 
make decision and policy and make a national monument out of 
Bears Ears land.
    Bears Ears Coalition is also proposing/imposing a national 
monument, closing 9.9 million acres. To us, this is an insane 
and senseless act. The motive for this type of action is greed, 
pride and inclination of satisfying specific interest groups. 
It totally excludes people of San Juan County. [Applause.]
    And this proposal does not benefit us.
    The proposal also establish--asking for the national 
monument as well as accessibility for native people to use, 
obtain and use, natural resources.
    As explained, the Antiquities Act probably is not going to 
allow both ways. This is a tactic that was used with the Utah 
Navajo just to gather support for their proposal. [Applause.]
    And many Navajo are beginning to realize now this is what 
they're doing, just to gain support for the proposal that they 
have written. Collaborative management is what they call is 
going to be established to regulate the national monument that 
they hope to have established.
    I believe this system is not workable and is something that 
will bring Arizona and New Mexico tribes to manage our public 
land that is located here in San Juan County. And to me, that 
will be a lot of disagreement.
    How could these tribes manage our land? How would they work 
with us, with the Navajo as well as other ethnic groups in San 
Juan County? They have no knowledge of what we need and how we 
use this land is the way we look at it. [Applause.]
    A co-management board, Navajo Nation is mentioned as one of 
the members to sit at this table to regulate and manage this 
national monument that they hope to establish.
    In the past we realized that Bears Ears region was in the 
United States Claims Indian Court, and it was pushing this to 
the level that we can have access back to Bears Ears region 
through this court. But Navajo tribes step in under Peterson 
Zah's Administration, early 1980's, when the money was offered 
to the tribal government, over $30 million, and they accepted 
that money which means that the Navajo Tribal Nation cannot, 
we're told they cannot touch the case or matters related to 
Bears Ears in the future and here they designate the Navajo 
Nation as one of the board members to regulate this national 
monument that's going to be established. [Applause.]
    And many of us in the Aneth area believe that we have a 
good chance in some way to reclaim some of this Bears Ears land 
through this court case. We protested. We said no to the Navajo 
Nation. Don't take the money. Let's pursue with the case. But 
it didn't happen.
    At that time my father, who is deceased now, was an 
official and I'd travel with him through his different places. 
Don't accept the money. We're still pursuing the case, but we 
lost and it was sad that it has happened.
    And I'd just like to share this with the audience. This is 
how much the people in Aneth are so involved and so tied to 
Bears Ears land.
    And the last one I'd like to share with you about the 
coalition proposal. It's a sacred document. That's how we look 
at it. The Aneth people has never read it or nobody has full 
knowledge of what's in the proposal. [Applause.]
    This proposal doesn't mention what's good for Aneth people. 
They had never contributed to it. This is why I oppose the 
coalition proposal.
    I am in support of Public Land Initiative Proposal. It 
stands for national conservation area and it stands for the 
wishes of Utah. It also will bring great protection for public 
land in San Juan County.
    Also, again, that I, we, really feel that on the PLI 
proposal there's going to be some economic development that 
Utah Navajo will benefit.
    A majority of the Navajo as we go travel into different 
chapters, they support the PLI Initiative. They don't support 
the coalition proposal. It's only written by a few people and 
this is why how we feel about it. It caused a lot of division, 
their proposal caused a lot of division in the Utah community, 
even in the family as well as with the friends. This is how 
much it has caused us pain this way. This is why we oppose it, 
and I'm one of them that oppose this proposal.
    Thank you for the opportunity to--[Applause.]
    [The prepared statement of Mr. Johnson follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 
    
    Senator Lee. Thank you. Thank you, Mr. Johnson, and I am 
grateful to have such an enthusiastic audience with us today as 
well. [Laughter.]
    Senator Lee. Our next and final witness today is Mr. Lewis 
Singer. [Applause.]
    Senator Lee. Mr. Singer is a Navajo Indian from Caliente, 
Arizona. He graduated with three degrees from Brigham Young 
University in education. He has been an educator, serving as a 
school administrator on and off the reservation for the San 
Juan School District for over 30 years. Upon his retirement he 
worked for Utah State University Eastern at the Blanding Campus 
for five years.
    Lewis and his wife, Donna, have seven children, 21 
grandchildren and get this, were foster parents to 57 Navajo 
boys. That is a lot of boys. [Applause.]
    Mr. Singer's wife, Donna, who was instrumental in helping 
to establish the Utah Navajo Health System in San Juan County, 
the Utah Navajo Health System now has four clinics and even 
helped build the Blue Mountain Hospital right here in Blanding.
    Mr. Singer? [Applause.]

  STATEMENT OF LEWIS SINGER, BLUE MOUNTAIN DINE, NAVAJO NATION

    Mr. Singer. Thank you, Senator Lee.
    I wanted to thank you and the Senate Energy and Natural 
Resource Committee for being here today. As you can see we have 
a lot of people that are very concerned about this issue here 
today. And this hearing is vital for our, you know, what 
happens in the future to our land here, all the Native 
Americans and the Indian people and the Bilagaana people, the 
white people who reside in this community.
    We're having this meeting in their behalf and I'm grateful 
that those, that Governor Herbert, our commissioner, 
commissioners, are here today. I know that Rebecca is in 
California on another assignment or she would be here. And Bob 
Bishop, we appreciate your attendance here today.
    And so, the Bears Ears Coalition has recommended that 1.9 
million acres of San Juan County land be designated for a 
national monument. On the land that is being proposed for a 
monument the Native people, the Indian people and the local 
people have been able to gather to hunt, to gather wood and 
traditional medicinal herbs and hold traditional ceremonies. 
National monument status would restrict access to the land, 
require payment of entrance fees and may restrict or prohibit 
traditional activities such as hunting, gathering wood, picking 
pine nuts, as Chester just mentioned, acquiring medicinal herbs 
and performing ceremonies on the land.
    Just this past year I've had the opportunity of going to 
Bullfrog-Halls Crossing and other monuments, and I've had to 
pay a fee every time I've entered those monuments. And I think 
you'll find the same restrictions at other monuments as well.
    Secret meetings have been held by supporters of a national 
monument to encourage Native Americans to believe that a 
monument will help them reclaim land that they lost. Our 
elderly people are really enticed with the idea that they can 
reclaim their land which we think will never happen. And so, 
opponents of the monument have been denied access to these 
meetings because we're not invited or admitted.
    And also, brochures have been developed and passed out 
among the Native people in an effort to get their support for a 
monument. These brochures declare that the Native people will 
still be allowed access to the land and conduct their 
traditional activities but the restrictions that will be 
enforced once the land becomes a national monument will not 
allow for these activities.
    As you see some of our Ute people that performed at the 
beginning of this meeting, they came to a meeting that was 
being held here a week ago and they were denied access by their 
leader to the meeting that was being held in White Mesa because 
they were against the monument.
    The Navajo people can tell you that this is the truth based 
on their experiences with the Wupatki and Canyon de Chelly 
National Monuments in Arizona.
    In Wupatki, generations of Navajo sheep herding has almost 
disappeared due to the National Park Service's limiting access 
to the land that Navajo families have managed since the 1870's. 
Now all that remains of a once thriving Navajo community is a 
Navajo elder woman whose home will be claimed by the National 
Park Service when she dies.
    In Canyon de Chelly, the Federal Government has removed 
more than 300 sacred tribal relics and human remains from 
Navajo property. The Navajo Nation, I hope, would never have 
had agreed to this monument designation if they had known what 
was going to happen beforehand.
    The Navajo people have given up enough of their tribal 
lands for national monuments as well as our Anglo people will 
be giving up land. 1.9 million acres is many times more land 
than many other national monuments. How can we, as a Native 
people, as people of this county, trust the United States 
Government when they provide reservations, for example, and 
then come back and claim them as national monuments?
    We ask the Secretary of the Interior to extend 
consideration of this action and complete more review of the 
negative consequences that a national monument would put on the 
local people and especially the Native people, who have fought 
for America, even after the degradation that they experienced 
at the hands of the Federal Government.
    My father and uncle were both code talkers. My nephew 
fought in Afghanistan and Iraq, along with many other Native 
soldiers for the American people. My brother served in the 
military. Taking away access to land which they and their 
families use in honor and which was established on tribal lands 
such as Canyon de Chelly and Wupatki by the Federal Government 
doesn't seem like very much gratitude for their sacrifices and 
service.
    I thank you for your time. [Applause.]
    [The prepared statement of Mr. Singer follows:]
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    
    Senator Lee. Thank you so much for your prepared remarks 
which were very insightful.
    I am now going to ask a few questions of our witnesses. 
After we are finished with that portion of it, we will gavel 
out from the hearing, then we will begin the town hall 
component of this meeting where we will have an opportunity to 
hear from members of the public.
    I would like to start with Mr. Singer and Mr. Johnson. I 
just want to ask you, generally, to describe to us very briefly 
what kind of impact has the debate surrounding the proposed 
Bears Ears National Monument had on your communities?
    Mr. Singer. Well, just to give you an example. Just this 
past year I've had the opportunity of delivering firewood to an 
elderly grandmother down at Monument Valley twice because she 
was out of firewood, and that's what she depended on for heat 
and for cooking. And so, that's one example.
    And then later on when we had a big snowstorm here in this 
area, one of the leaders called me from down in Monument Valley 
Chapter and asked if we could bring firewood down to the 
Chapter for people that were relying on firewood to heat their 
homes and to cook and that kind of thing.
    And so, I went to one of our church leaders here and in our 
community here and he was very gracious in allowing us to load 
a pickup truck and also a trailer load full of firewood so that 
those people could sustain themselves and relying on the 
firewood that they depend on in this area.
    Senator Lee. Mr. Johnson, anything to add there?
    Mr. Johnson. Yes, I'd like to add that we still depend on 
Bears Ears region for hunting. I think this is going to be 
limited. This is going to be eradicated to the limit that we're 
not going to be allowed. And this is something that we just 
don't just hunt for meat. We use the buckskin for ceremony as 
well. To some extent, this is going to be very limited.
    Also, we came down for enjoyment and for spiritual 
practices when we--when we diminish also that we were not 
allowed to come on to pick pinions which Bears Ears region is 
grow a lot of good pinions and red berries which the Navajo 
still use to come down also.
    And for those people that are basket makers, I'm sure they 
go up there for good willow, cut them and make a basket in that 
way that they sell it for economic benefit and economy wise and 
things like that. I think it's going to be very limited. It 
will eliminate to some extent.
    Senator Lee. Thank you. Thank you.
    Governor Herbert, as Governor of Utah you have occasion to 
interact regularly with officials from the Federal Government, 
including officials from the Executive Branch of Government. 
Tell me how you think the designation of a national monument at 
Bears Ears, how would that impact the interactions you have, 
the interaction between the Governor's Office and the White 
House or more broadly, the interaction between the State of 
Utah, the government of which you oversee as its Chief 
Executor, and the Federal Government, generally?
    Governor Herbert. Well, I understand the issue is one 
that's emotional and for the people particularly close to the 
area in question it becomes very personal. And we need to look 
no farther than what happened 20 years ago when we had the 
Grand Staircase Escalante monument. And we still have the scars 
today, 20 years later.
    Senator Lee. Tell me what you mean by that, the scars?
    Governor Herbert. People don't trust the Federal 
Government.
    Again, that process, I mean, talk about a bad process. Our 
congressional delegation, every one of them, was lied to. Our 
Governor found out about the designation of the monument by 
reading it in the Washington Times.
    The President went and stood across in a neighboring state 
to make the declaration. He didn't even come to Utah. Had no 
public input. So that was probably the worst of the worst. I 
would shudder to think if that was the same thing that was to 
happen here today. So we still have the scars. We still have 
the anxiety. We have the animus, the anger.
    And a monument here will be divisive. I've said this. It's 
not a matter of should we protect the Bears Ears area. 
Everybody has, I think, consensus on that. But the process of 
how we do it makes a big difference in relationships between 
the State of Utah and all of Utah's three million people and 
the Federal Government if we feel like they did it to us again 
as opposed to doing it with us.
    The PLI is with us. It's consensus. It's the appropriate 
way to do it where we can all feel a part of the outcome and 
buy into it. The designation of the monument is, kind of, 
somebody, kind of, sticking it to us for whatever reason. Some 
of it, as the Congressman said, feels like it's just political.
    Senator Lee. So, in other words, if you were advising--Yes. 
[Applause.]
    If you were advising the President of the United States and 
he were asking your advice, you might be inclined to tell him, 
look, you guys own two-thirds of our state. That is a lot of 
our state to own. One would think that if you want to own that 
much of a state, you might want to have a good relationship 
with its residents and a good relationship with its Governor 
and its elected officials throughout the state. That certainly 
should be taken into account heavily when deciding to take a 
step like this.
    Governor Herbert. Absolutely. [Applause.]
    If it's really about protecting and preserving areas of 
critical need, I get it. But the PLI does much more than that. 
It protects even beyond Bears Ears and preserves and protects 
there.
    So, again, if it's really about what we can do to manage 
correctly the public lands, the PLI is a much better vehicle to 
get that done which brings us together rather than divides us a 
national monument would do.
    Senator Lee. Many of the promises the Obama Administration 
has made to the Bears Ears Coalition may well be sincere but 
history, in my opinion, suggests that many of those promises 
are likely to prove hollow just based on our track record, 
based on the track record of the Federal Government, based on 
the track record of Federal land managers and their 
interactions with the people of Utah.
    Should President Obama decide to create a national 
monument, to put out a proclamation out of the Antiquities Act 
designating the Bears Ears as a national monument, current law, 
in my opinion, provides no certainty for Native Americans to 
continue practices that are essential to their way of life, 
that are important to them for spiritual and historical and 
cultural reasons.
    To remember from today's hearing, only one thing, forget 
everything else, just remember this, there is no law, there is 
no judicial precedent that guarantees that Native Americans 
will have continued access to or use of their sacred sites on 
this land, if that land is, in fact, designated as a national 
monument. There is nothing in existing law that provides that 
guarantee.
    Now----[Applause.]
    Now, to be clear some are going to respond to this, and 
they are going to point out that prior national monument 
proclamations have cited a handful of statutes that sound like 
they guarantee some of these protections. But we discovered 
that upon further examination they've proven to be completely 
toothless.
    President Obama has cited Executive Order Number 13007 
which tells land managers to accommodate access to and 
ceremonial use of Native American sacred sites. But these 
supposed protections, supposed protections that are often 
invoked by people who are wanting to promote the idea of a 
national monument, quickly deteriorate. This supposed 
accommodation is qualified by language limiting Native 
Americans access to these lands. I quote, Representative Bishop 
referred to this earlier, ``To the extent practicable, 
permitted by law and not clearly inconsistent with the 
agency.'' You do not have to be a lawyer to look at that and 
realize that that is a loophole that is so wide you could drive 
a 747 and an airbus 8380 through it side-by-side. [Applause.]
    Moreover, Executive Order 13007 does not provide a cause of 
action. What does that mean? It means if they violate it there 
is no remedy in court. You cannot just bring them to court on 
that. And so, it's toothless. It draws near to this principle 
with its words, but its heart is very far from protecting 
religious freedom.
    Past presidents have also cited the American Indian Freedom 
of Religion Act of 1978. That too, provides no cause of action 
for potential religious freedom violations by Federal agencies 
and does not prohibit Federal agencies from adopting policies 
that would inflict serious harm on sacred sites. I find this a 
little alarming.
    Congressman Bishop, tell me this. In what ways does the 
Public Lands Initiative provide more certainty? In what ways 
would it provide more protection for religious freedom and for 
access by Native Americans to these sacred sites than they 
would have access to in the event, in the unfortunate event, of 
Presidential Proclamation designating a national monument in 
the Bears Ears?
    Mr. Bishop. Well, the language appeal, I tried to take away 
every kind of loose language that could be interpreted 
differently. So what we are trying to do is actually write down 
the specifics of what will and will not take place. So this 
idea of, you know, to the extent practical will not be found in 
there. But the bottom line is still the difference, as you 
already mentioned.
    We have the ability in Congress to establish statute, 
though if it's not in existence right now, we can change it to 
make it happen. A Presidential Proclamation, as nice as they 
are, they still can't do that, even though he can say almost 
anything he wants to, it is not the same thing as changing the 
law.
    That's what we're trying to do with PLI. We are trying to 
change the law so that recreation, so that economic activities, 
grazing, traditional activities, they can be maintained.
    And if we're talking about co-active or cooperative 
management, I like that concept. I think it has a great deal of 
opportunity.
    The President in a proclamation could not make what they 
have said they want to do. They cannot make it happen. But we 
could, and I'm willing to do that. I'm going to make sure that 
kind of cooperation in the management could take place, but it 
has to be done in statute otherwise there is no guarantee.
    Senator Lee. Thank you. [Applause.]
    Commissioner Adams, are you aware that past national 
monument designations on BLM land have prohibited grazing 
entirely?
    Mr. Adams. Yes, I am. That's why I'm so passionate about 
the fact that monuments do away with AUMs.
    Senator Lee. Right.
    What would happen if grazing were strictly prohibited in 
San Juan County under a designation? I assume that would be 
bad.
    Mr. Adams. I think one of my compatriots out there said 
war. [Laughter.] [Applause.]
    It would virtually devastate this county. Agriculture is 
probably number two in the county as far as importance for 
people to make a living.
    You take this national monument, 1.9 million acres. We have 
five million acres in this county, one of the biggest counties 
in the United States. It's bigger than some states but only 
nine percent is private, or eight percent is private property.
    So we have to find a way to make a living on public land. 
If you eliminate grazing in this county you're going to 
eliminate the livelihood of hundreds of families. It will 
devastate this county, and it will devastate the livelihood of 
farmers and ranchers in this county from now on. It is the most 
divisive proposal that has ever faced this county to my 
knowledge is this monument idea. [Applause.]
    Senator Lee. Congressman Bishop, talk to me about co-
management. Some people who have been advocates for the idea of 
a Bears Ears National Monument have suggested it is all going 
to be okay because we will have co-management.
    First of all, tell me, is there any way co-management can 
work under existing law? Secondly, even if it could, without 
adequate constraints built into the law, are there additional 
concerns that could flow from that unless the terms of the co-
management are clearly spelled out in law?
    Mr. Bishop. That's an easy one.
    No, there's no way under existing law that you can have the 
co-management that the Administration is talking about.
    Senator Lee. So, just to be clear. If the President issues 
a proclamation under the Antiquities Act saying I, President 
Barack Obama, hereby designate the Bears Ears as a national 
monument at two million acres and it's bigger than Yosemite 
National Park and I don't care what the people of San Juan 
County think or whatever he says in there. If he then says, and 
I hereby put in motion a co-management structure. Those are 
empty words. Is that right?
    Mr. Bishop. Yes, sincerity may be actually there, but if he 
were to actually--and they were to try to implement that, 
anybody could sue and it would be kicked out. I mean, they 
would lose because it violates the law as it's presently 
constituted. But that's what I said is the only way you get 
around that is if you actually pass statute that changes the 
law.
    Senator Lee. Thank you.
    This has been an extraordinarily useful exercise.
    In a moment we are going to gavel out of this hearing and 
we will move on to the next phase of our meeting, the town hall 
portion of the meeting where we will have the opportunity to 
hear from those of you who have come to talk to us and about 
your concerns and about your thoughts on this concept.
    I want to thank you once again for coming. I also want to 
thank each of our witnesses for coming, who provided valuable 
testimony.
    It is very important that we, as citizens of a state where 
most of the land is owned by the Federal Government, it is very 
important that we remember that we have certain rights as U.S. 
citizens and that those rights need to be protected and they 
won't be protected unless we voice our concerns when the 
government is going to do something. We will always endeavor as 
citizens to voice them in a diplomatic way, in a civil way, but 
in a way that makes no mistake about the fact that our opinions 
matter and that when actions are taken that affect us locally, 
that affect us individually, that affect us personally, we are 
not going to simply accept whatever decision happens to be made 
from Washington, DC without expressing our opinions because our 
opinions matter.
    I am reminded of a scene near the end of the Constitutional 
Convention of 1787 when a delegate from Massachusetts named 
Elbridge Gerry arose on September 3rd, 1787 to address his 
fellow delegates to express concerns about the proposed 
Constitution which was still undergoing some revisions. He 
explained that he was worried about provisions in the proposed 
Constitution that might give Congress too much power on a 
number of points, one of them involving the ownership of public 
land.
    And he uttered words to the effect of this, that if at the 
end of the day Congress ends up acquiring too much land within 
particular sovereign states, the people of those states might 
be compelled to an undue humble obedience to the Federal 
Government.
    I wonder sometimes whether when Elbridge Gerry was speaking 
whether he had us in mind. I wonder whether he saw San Juan 
County in particular. And I wonder whether we need to revisit, 
as a people, not just as residents of this part of the state, 
not just as residents of Utah, but as an American people, why 
it is that it makes sense.
    In what universe is it fair for the Federal Government to 
own this much land in our state, for the Federal Government to 
render our state so subservient on so many levels for the will 
and whim of bureaucratic administrators who are far from us? 
[Applause.]
    The information we have obtained today has proven 
incredibly helpful. The record will remain open for a period of 
two weeks after this meeting has concluded and during that time 
witnesses are free to submit additional information.
    We will now gavel out and reconvene in just a couple of 
minutes in order to take your questions. This hearing is 
adjourned. Thank you.
    [Whereupon, at 4:30 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                   [all]
</pre></body></html>
